No. 20-306
In the

Supreme Court of the United States
ROBERT OLAN AND THEODORE HUBER,
Petitioners,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
REPLY BRIEF FOR PETITIONERS

ALEXANDRA A.E. SHAPIRO
DANIEL J. O’NEILL
ERIC S. OLNEY
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
BARRY H. BERKE
DANI R. JAMES
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Sixth Avenue
New York, New York 10036
(212) 715-9011

Counsel for Petitioner
Theodore Huber

DONALD B. VERRILLI, JR.
Counsel of Record
ELAINE J. GOLDENBERG
JONATHAN S. MELTZER
JACOBUS P. VAN DER VEN
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave., NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com
DAVID ESSEKS
EUGENE INGOGLIA
ALEXANDER BUSSEY
ALLEN & OVERY LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 610-6300
Counsel for Petitioner
Robert Olan

i
TABLE OF CONTENTS
Page
A.

This Is An Appropriate Case For
Summary Reversal............................................ 3

B.

If The Court Does Not Summarily
Reverse, Certiorari Should Be Granted
And The Case Should Be Decided This
Term .......................................................................... 5

C.

At A Minimum, The Court Should
Grant, Vacate, And Remand........................... 11

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Bousley v. United States,
523 U.S. 614 (1998) ................................................ 8
Cleveland v. United States,
531 U.S. 12 (2000) .......................................... 2, 3, 5
Dirks v. SEC,
463 U.S. 646 (1983) .......................................passim
Hughey v. United States,
495 U.S. 411 (1990) ................................................ 8
Kelly v. United States,
140 S. Ct. 1565 (2020) ...................................passim
M. Kraus & Bros. v. United States,
327 U.S. 614 (1946) ................................................ 8
Salman v. United States,
137 S. Ct. 420 (2016) .......................................... 3, 7
Skilling v. United States,
561 U.S. 358 (2010) ................................................ 6
United States v. Blakstad,
2020 WL 5992347 (S.D.N.Y. Oct. 9,
2020)........................................................................ 4
United States v. Middendorf,
2018 WL 3443117 (S.D.N.Y. July 17,
2018), appeal pending (2d Cir. Nos.
19-2983, 19-3374) ................................................... 4

iii
TABLE OF AUTHORITIES
(Continued)
Page(s)
United States v. O’Hagan,
521 U.S. 642 (1997) ................................................ 8
United States v. Sidoo,
468 F. Supp. 3d 428 (D. Mass. 2020) ..................... 4
United States v. Wiltberger,
18 U.S. 76 (1820) .................................................... 8
OTHER AUTHORITIES
William J. Stuntz, Substance, Process,
and the Civil-Criminal Line, 7 J.
Contemp. Legal Issues 1 (1996) ............................. 9
Eugene Volokh, Journalists Might Be
Felons for Publishing Leaked
Governmental “Predecisional
Information,” Reason (Jan. 27, 2020) .................... 5
Karen E. Woody, The New Insider
Trading, 52 Ariz. St. L.J. 594 (2020) ..................... 9

1
REPLY BRIEF FOR PETITIONERS
After receiving two extensions of the deadline to file
its brief in opposition, the government has now submitted a one-paragraph “memorandum” that does not
defend the Second Circuit’s decision. Instead, the government urges that the decision be vacated and remanded in light of Kelly v. United States, 140 S. Ct.
1565 (2020). The government is certainly correct that
a denial of certiorari would not be appropriate after
Kelly. But here Kelly warrants more than a GVR; it
warrants summary reversal, because it makes unmistakably clear that the Second Circuit’s decision is irreconcilable with the text of the federal fraud and conversion statutes and with this Court’s precedents. If
there is any doubt whether summary reversal is appropriate, the Court should grant certiorari and decide
the case after briefing and argument during the current Term. But if the Court decides not to take either
of those courses, then, at a minimum, a GVR is necessary.
This is no run-of-the-mill criminal case. In the
courts below, the government succeeded in securing a
decision that vastly expands the scope of the federal
wire-fraud, conversion, and securities-fraud statutes.
In the Second Circuit, the government can now prosecute the unauthorized disclosure and use of confidential government information as wire fraud and conversion even when the information has no economic value
to the government—transforming those provisions
from property crimes into a cudgel to threaten whistleblowers and journalists, and creating an all-purpose
prohibition on “dishonest services” that can be wielded
to prosecute official misconduct. See Pet.19-23. And
the government can now prosecute insider trading
without any need to prove that an insider received a
personal benefit for tipping inside information (which

2
this Court has held is the sine qua non of insider-trading fraud) or that downstream tippees knew of any
such benefit—a long-desired goal of federal prosecutors that Congress has never seen fit to enact into law.
See Pet.25-31. In both of those ways, the Second Circuit effectively created new crimes at the behest of federal prosecutors, thereby flouting fundamental principles rooted in due process and the separation of powers.
The Second Circuit may reverse itself in light of
Kelly. But that is not certain. See Pet.App.46a-50a
(Kearse, J., dissenting) (explaining, before issuance of
Kelly, that the panel majority’s decision was wrong in
light of Cleveland v. United States, 531 U.S. 12 (2000),
which held that if the government’s “core concern is
regulatory” rather than “economic” then the object of
that concern is not “‘property’ in the government regulator’s hands,” id. at 20). Petitioners should not have
to continue to live under the threat of lengthy incarceration while the case returns to the Second Circuit,
especially because the case could well come back to
this Court once the Second Circuit renders its new decision.
In addition, even if the Second Circuit does reach a
different conclusion about “property” on remand, that
court’s radical change to insider-trading law would remain unaddressed. To be sure, that change may not
remain a holding of the court post-remand. If the Second Circuit reverses itself on the “property” issue, it
may choose to go no further (because that ruling would
invalidate all counts), or to discuss the personal-benefit issue in a way that might be considered only dicta.
But unless the court’s existing erasure of the personalbenefit requirement under Sections 1343 and 1348 is
repudiated, prosecutors in the Second Circuit will continue to feel free to charge insider-trading crimes even

3
where there is no proof of personal benefit. And district courts in the Circuit (where most insider-trading
prosecutions are brought) would likely follow the Second Circuit’s lead even if it were not technically binding, just as they do with unpublished Second Circuit
opinions. That in turn would produce exactly the unfairness to individual defendants and chilling effect on
market analysts that the personal-benefit requirement exists to prevent. See Salman v. United States,
137 S. Ct. 420, 427 (2016); Dirks v. SEC, 463 U.S. 646,
663 (1983). It is therefore important that the Second
Circuit’s insider-trading ruling be reversed as well.
A.

This Is An Appropriate Case For Summary
Reversal

The position of the government before this Court is
extraordinary. After pressing for and obtaining an unprecedented expansion of the scope of federal wire
fraud, conversion, and securities fraud in the courts
below, the government now makes no effort to defend
those rulings. Instead, it asks that the case be remanded for further consideration in light of Kelly. But
the government offers no rationale on which the Second Circuit’s ruling could be upheld. Indeed, the government has all but confessed error. 1
The government has purported to waive “further” response.
U.S. Memo. 2 n.*. But the government has not waived response
in the manner contemplated by this Court’s usual practice. To
the contrary, the government has in fact responded and urged a
particular disposition (vacatur and remand). Whatever the reasons for the government’s unusual statement that it is waiving
“further” response, the government should not be permitted a second bite at the apple in the event this Court concludes—as petitioners respectfully suggest it should—that summary reversal is
appropriate. The government had ample time to develop a substantive response to the petition for certiorari. If the government

1

4
The contrast between the government’s current position and the position it took in opposing petitioners’
motion to stay the Second Circuit’s mandate pending
certiorari—thereby seeking to send petitioners to
prison—is especially striking. In seeking that relief,
petitioners argued that Kelly required reversal of the
decision below. The government responded that Kelly
(as well as this Court’s earlier unanimous decision in
Cleveland) had no application here. At that point, the
government contended that confidential government
information could be deemed “property” within the
meaning of the relevant statutes even if that information lacked any economic value to the government.
Dkt.343 (2d Cir. 18-2811) (28(j) letter). Apparently
upon further reflection the government no longer believes that the Second Circuit’s decision can be defended on that basis. Yet the government is unable to
identify any other basis on which the decision could be
upheld in light of Kelly. Likewise, the government offers not one word in defense of the Second Circuit’s decision to eliminate the personal-benefit requirement in
criminal insider-trading cases.
In view of the government’s inability to offer any defense of the decision below, the case can and should be
decided now on a summary basis. A remand would
merely delay the inevitable while forcing petitioners to
continue to endure the stress of criminal jeopardy and
had anything to offer in defense of the Second Circuit’s decision,
presumably it would have said so. It would be fundamentally unfair to petitioners, and a waste of this Court’s time and resources,
to allow the government’s gambit to succeed in delaying definitive
resolution of this case. But if the Court concludes that the government’s purported waiver of “further” response precludes summary reversal, then the Court should grant the petition for certiorari and consider the case after plenary review this Term.

5
allowing the government to pursue other defendants
under the same theories. 2 Summary reversal also
would eliminate the chilling effect on whistleblowers,
journalists, and publishers who now must weigh the
risk that any unauthorized disclosure of government
information will subject them to criminal prosecution.
And it would send an unmistakable message about the
need to rein in overzealous enforcement of the federal
criminal law in disregard of statutory text, this Court’s
precedents, and bedrock constitutional principles.
B.

If The Court Does Not Summarily Reverse,
Certiorari Should Be Granted And The
Case Should Be Decided This Term

If this Court determines that summary reversal is
not warranted, then the petition for certiorari should
be granted. Both of the questions presented easily satisfy the standards for plenary review.
1. In urging this Court to vacate and remand, the
government effectively concedes that the Second Circuit’s decision conflicts with this Court’s decision in
Kelly. And, as Judge Kearse explained in dissent below (Pet.App.49a), the decision is also in direct conflict
with Cleveland, which Kelly reaffirmed. Those decisions underscore what the statutory text already
makes plain: a scheme to defraud the government of
“property” under the wire-fraud statute (or of “a thing
of value” under the conversion statute) must deprive
the government of something that has economic value
to the government. Those provisions protect the gov-

See, e.g., United States v. Middendorf, 2018 WL 3443117, at *89 (S.D.N.Y. July 17, 2018), appeal pending (2d Cir. Nos. 19-2983,
19-3374); United States v. Sidoo, 468 F. Supp. 3d 428, 440 (D.
Mass. 2020); United States v. Blakstad, 2020 WL 5992347
(S.D.N.Y. Oct. 9, 2020).
2

6
ernment’s property interests, not its regulatory interests. They cannot plausibly be stretched to cover the
unauthorized disclosure and use of government information that lacks any economic value to the government.
Unless it is reversed, the Second Circuit’s decision
to criminalize the unauthorized disclosure of government information will have wide-ranging pernicious
consequences. See Pet.19-24; Nat’l Assoc. of Crim.
Def. Lawyers Amicus Br. 13-16; Eugene Volokh, Journalists Might Be Felons for Publishing Leaked Governmental “Predecisional Information,” Reason (Jan. 27,
2020). 3
Confidential government information is
leaked to journalists, lobbyists, and legislative staffers
every day in Washington, D.C., and state capitals
across the nation. As a result of the decision below,
any of those disclosures can be prosecuted as wire
fraud and conversion. The government can also
charge deprivations of honest services—without any
need to prove a bribe or kickback—as federal property
crimes, thereby erasing the strict limitations that this
Court has placed on honest-services prosecutions. See
Skilling v. United States, 561 U.S. 358, 408-409 (2010)
(honest-services fraud requires proof of bribe or kickback). And the government can do all of those things
in disregard of numerous statutes that penalize disclosure of confidential or classified information in only
limited circumstances (and subject to only limited penalties), because the Second Circuit’s decision effectively replaces those statutes with a broader and more
draconian prohibition.

Available at https://reason.com/volokh/2020/01/27/journalistsmight-be-felons-for-publishing-leaked-governmental-predecisional-information.
3

7
2. The Second Circuit’s elimination of the personalbenefit element of insider-trading fraud in Title 18
cases also merits plenary review. The government offers no defense of that ruling, which upends decades of
settled precedent, flouts fundamental principles of
statutory interpretation, deprives financial professionals and investors of Dirks’s clear “guiding principle,”
and criminalizes conduct that the SEC cannot civilly
charge. This Court’s intervention is critical now, given
the Second Circuit’s radical departure from settled
doctrine, its nationwide influence on securities law,
and the destabilizing impact of its ruling on the securities markets.
As the petition explains (at 25-30), the Second Circuit’s personal-benefit ruling squarely conflicts with
this Court’s insider-trading jurisprudence over the
past four decades. This Court has repeatedly held that
personal benefit is the sine qua non of insider-trading
fraud, and that using confidential information in investment decisions is not fraudulent unless the source
of the information received a personal benefit in exchange for the disclosure. See, e.g., Dirks, 463 U.S. at
663 (personal benefit “determin[es] whether * * * a
particular disclosure is fraudulent”); Salman, 137 S.
Ct. at 427 (“[T]he disclosure of confidential information without personal benefit is not enough.”). Yet
the Second Circuit dismissed this Court’s insider-trading decisions as irrelevant to Title 18 fraud, even
though the Title 15 and Title 18 provisions at issue
contain nearly identical anti-fraud language.
The Second Circuit’s ruling has been roundly criticized by securities-law scholars and other commentators, including petitioners’ amici. See Pet.29, 33 n.15;
Alternative Investment Mgmt. Assoc. (AIMA) Amicus
Br. 2-18; Law Profs. Amicus Br. 8-20. They rebuke the
Second Circuit for subordinating textual consistency

8
to unsupported suppositions about statutory purpose,
and for blatantly contorting and misconstruing both
the legislative history and Dirks. And they warn that
the decision below represents a sea change in insidertrading law, exposes financial professionals to imprisonment for doing their jobs, and chills the analysis of
information on which the integrity of the securities
markets depends.
For good reason. This Court’s review is urgently
needed given the importance of the issue and the farreaching negative consequences likely to flow from the
Second Circuit’s decision.
First, securities trades that were universally understood to be lawful and nonfraudulent before the Second
Circuit’s decision now expose even the most casual investor to up to 25 years’ incarceration. For four decades, financial professionals, investors, and even the
government relied on Dirks’s personal-benefit requirement, which everyone understood marked the boundary between permissible trading on confidential information and illegal insider-trading fraud. There was
no reason to second-guess precedent or suspect that
the government might one day suggest that different
rules applied under Title 18; on the contrary, this
Court had proclaimed that wire fraud and Title 15
fraud are “the same species” of fraud. United States v.
O’Hagan, 521 U.S. 642, 654 (1997). Yet the Second
Circuit has now created an entirely new crime that allows prosecutors to imprison people for insider-trading
“fraud” that is not actually fraud as defined in Dirks
and this Court’s other insider-trading decisions.
That raises substantial constitutional concerns, because “only Congress, and not the courts, * * * can
make conduct criminal.” Bousley v. United States, 523
U.S. 614, 620-621 (1998); see United States v. Wiltberger, 18 U.S. 76, 95 (1820) (“It is the legislature, not

9
the Court, which is to define a crime, and ordain its
punishment.”). The Second Circuit’s decision also conflicts with basic principles of due process and lenity,
which prohibit courts from affirming criminal convictions on the basis of statutory interpretation animated
by “policy judgments rather than by the inexorable
command of relevant language.” M. Kraus & Bros. v.
United States, 327 U.S. 614, 626 (1946); see Hughey v.
United States, 495 U.S. 411, 422 (1990) (“[L]ongstanding principles of lenity * * * preclude our resolution of
the ambiguity [in a criminal statute] against petitioner on the basis of general declarations of policy in
the statute and legislative history.”); see also AIMA
Br. 10-11; Law Profs. Br. 14.
Second, the Second Circuit has made it easier for
the government to prove a crime than a regulatory violation, because the SEC’s authority is limited to enforcing Title 15. That upends traditional norms of
civil-criminal proportionality, which require more culpable conduct to justify criminal sanctions and, in particular, deprivation of a citizen’s liberty. See Karen E.
Woody, The New Insider Trading, 52 Ariz. St. L.J. 594,
639-640 (2020); see also William J. Stuntz, Substance,
Process, and the Civil-Criminal Line, 7 J. Contemp.
Legal Issues 1, 24-26 (1996). Moreover, Congress
charged the SEC with ensuring the integrity of the nation’s securities markets. It is inconceivable that Congress intended to extend federal prosecutors greater
latitude than its chief market regulator to employ the
anti-fraud rules against pernicious market behaviors.
Third, as amicus AIMA explains, the ruling threatens to undermine the nation’s securities markets. The
efficient functioning of the markets depends on the
ability of investors and analysts to perform regular,
meaningful diligence on issuers and to freely use that
research in their trading activities. When they do,

10
buy/sell orders better incorporate all relevant information and market prices better reflect the true value
of the securities. AIMA Br. 4-6. This Court recognized
as much in Dirks. It emphasized that an overbroad
insider-trading proscription would inhibit analysts
from “ferret[ing] out and analyz[ing] information”—a
function “necessary to the preservation of a healthy
market.” 463 U.S. at 658-659. The Court identified
the personal-benefit requirement as the “essential”
“guiding principle” for market participants who need
clear rules as to when they can lawfully use market
intelligence for trading decisions. Id. at 664.
The Second Circuit erased that essential and longsettled demarcation and replaced it with uncertainty
that will only worsen if the decision is vacated on other
grounds. “[E]specially given the ever-increasing availability of information and the fast pace of complex
transactions,” analysts and traders can no longer reliably determine what information they can lawfully act
on. AIMA Br. 7. Inevitably they will bypass perfectly
legitimate information, for fear of transgressing an
ever-expanding criminal proscription. Id. at 14. Investment managers, similarly, will be caught “between
a rock and a hard place,” unable to fulfill their fiduciary obligations to maximize client returns for fear of
crossing a line that now appears in flux. Id. at 5, 7.
And corporations that faithfully instituted measures
to ensure insider-trading compliance based on Dirks
and its progeny now have to return to the drawing
board, designing extraordinarily restrictive compliance programs to address the Second Circuit’s newly
expansive definition of fraud. Id. at 7.
The resulting overdeterrence will upset the delicate
balance this Court struck in Dirks and deprive markets of important and lawful information on which
their health and fairness depend. AIMA Br. 7-8. That,

11
in turn, will cause prices to “become untethered from
the fundamental values of securities” and subvert the
very premise of the securities markets. Id. at 14 (internal quotation marks omitted).
The policy determination that a broad insider-trading prohibition justifies the attendant market inefficiencies can be made only by Congress—not courts.
That Congress has repeatedly declined to do so attests
to just how far the Second Circuit overstepped. Its decision to criminalize trading that was legal for four
decades cries out for this Court’s immediate review.
C.

At A Minimum, The Court Should Grant,
Vacate, And Remand

If this Court were to decide not to summarily reverse or to grant plenary review, then—at a minimum—a GVR is warranted. That is the course that
the government has recommended. As the government agrees, at the very least the Second Circuit must
have the opportunity to consider whether this Court’s
intervening and highly relevant decision in Kelly dictates a different result.
*****
For the foregoing reasons and those stated in the
petition, the decision below should be summarily reversed, or this Court should grant plenary review. At
a minimum, consistent with the government’s position, the Court should GVR.

12
Respectfully submitted,
ALEXANDRA A.E. SHAPIRO
DANIEL J. O’NEILL
ERIC S. OLNEY
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
BARRY H. BERKE
DANI R. JAMES
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Sixth Avenue
New York, New York 10036
(212) 715-9011
Counsel for Petitioner
Theodore Huber

December 8, 2020

DONALD B. VERRILLI, JR.
Counsel of Record
ELAINE J. GOLDENBERG
JONATHAN S. MELTZER
JACOBUS P. VAN DER VEN
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave., NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com
DAVID ESSEKS
EUGENE INGOGLIA
ALEXANDER BUSSEY
ALLEN & OVERY LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 610-6300
Counsel for Petitioner
Robert Olan

